                OFFICE OF INSPECTOR GENERAL


 FINANCIAL MANAGEMENT SYSTEM &
     COMPLIANCE EVALUATION

                                    ON SELECTED
                                   NEA GRANTS TO

   Association of Performing Arts Presenters,
                       Inc.
                                     Washington, D.C.

                          REPORT NO. SCE-12-03

                                        June 20, 2012

                                 REPORT RELEASE RESTRICTION

In accordance with Public Law 110-409, The Inspector General Act of 2008, this report shall be posted on
the National Endowment for the Arts (NEA) website not later than three (3) days after it is made publicly
available with the approval of the NEA Office of Inspector General. Information contained in this report
may be confidential. The restrictions of 18 USC 1905 should be considered before this information is
released to the public. Furthermore, information contained in this report should not be used for purposes
other than those intended without prior consultation with the NEA Office of Inspector General regarding its
applicability.
                                INTRODUCTION

BACKGROUND
The Association of Performing Arts Presenters (APAP) is a non-profit organization based
in Washington, DC. APAP is the national service and advocacy organization dedicated
to developing and supporting the performing arts presenting field and the professionals
who work within it. APAP works to effect change through advocacy, professional
development, resource sharing, and civic engagement.

OBJECTIVE, SCOPE, AND METHODOLOGY
The objective of this financial management system and compliance evaluation by the
National Endowment for the Arts (NEA) Office of Inspector General (OIG) is to
determine whether the organization’s financial management system and recordkeeping
complies with the requirements established by the Office of Management and Budget
(OMB), and NEA’s General Terms and Conditions for Grants and Cooperative
Agreements to Organizations (General Terms). In addition, we evaluated the recipient’s
compliance with OMB and NEA guidance for the management of the American
Reinvestment and Recovery Act of 2009 (Recovery Act) funding.

The Recovery Act provided $50 million to the NEA to be distributed in direct grants to
fund arts projects and activities which preserve jobs in the nonprofit arts sector threatened
by declines in philanthropic and other support during the current economic downturn.
Consistent with the language in the Act, eligible projects are generally limited to salary
support and fees for artists or contracted personnel.

The review was conducted in accordance with the Council of the Inspectors General on
Integrity and Efficiency Quality Standards for Inspections and Evaluations, as applicable.

During the period under review, APAP had nine NEA grants active with awards totaling
$474,400. We reviewed two of the nine grants in which NEA funds had been drawn
down and costs had been reported. The two grants reviewed were Grant No. 09-5488-
7240 in the amount of $50,000 and Grant No. 10-5400-7165 in the amount of $75,000.

PRIOR AUDIT COVERAGE
NEA OIG has not issued any audit reports on Federal grants awarded to APAP. As of
our site visit on April 3, 2012, the most recent independent auditor’s report on APAP is
as of June 30, 2011. The audit was conducted by SB & Company, LLC, an independent
CPA firm, which issued an unqualified (clean) opinion. APAP was not subject to the
audit requirements of OMB Circular A-133.




                                             1
                       RESULTS OF EVALUATION
Our evaluation concluded that APAP did not comply with the financial management
system and recordkeeping requirements established by OMB and NEA for its Recovery
Act funds awarded under Grant No. 09-5488-7240. APAP did not separately identify
Recovery Act expenditures in its financial management system and did not maintain
personnel activity reports.

Our evaluation also concluded that APAP did not comply with the financial management
system and recordkeeping requirements established by OMB and NEA for its NEA Grant
No. 10-5400-7165. APAP did not separately identify expenditures by specific grant
award in its financial management system. APAP also included costs incurred outside of
the grant period on its final Federal Financial Report (FFR). Furthermore, APAP did not
have the required Section 504 self-evaluation on file. Details are presented in the
narrative below.

                       FINANCIAL MANAGEMENT
RECOVERY ACT AWARD No. 09-5488-7240
Documentation of NEA Recovery Act Funds

Our evaluation determined that APAP did not separately identify expenditures charged to
the NEA Recovery Act award in its financial management system.

2 CFR 176.210, Part A, states:
       To maximize the transparency and accountability of funds authorized under the
       American Recovery and Reinvestment Act of 2009 (Pub. L. 111-5) (Recovery Act) as
       required by Congress and in accordance with 2 CFR 215.21 "Uniform
       Administrative Requirements for Grants and Agreements" and OMB Circular A-
       102 Common Rules provisions, recipients agree to maintain records that identify
       adequately the source and application of Recovery Act funds.

Without policies and procedures in place to adequately identify the source and
application of Recovery Act funds, expenditures charged to the award cannot be
determined.

We recommend that APAP develop and implement policies and procedures to track each
grant award separately.

APAP also did not maintain personnel activity (time and effort) reports for the salary
costs charged to the NEA Recovery Act award. Personnel activity reports were required
for employees whose salaries and fringe benefits were charged, in whole or in part, to the
Recovery Act award.




                                              2
NEA and OMB guidelines for the Recovery Act awards states, in part:
       Recipients must maintain adequate time-and-effort reports (i.e., personnel activity reports)
       when charging a person’s salary in whole or in part to the grant.

APAP did not have policies and procedures in place to ensure that personnel activity
reports were maintained for salary costs charged to the Recovery Act award. Without
personnel activity reports, employees’ time and effort charged to the award cannot be
identified.

As a result of inadequately documenting the Recovery Act award, we are questioning
$50,000 of salaries and fringe benefits charged to the award, which could result in a
potential refund to the NEA.

During our onsite visit, APAP provided documentation to support the questioned salary
costs, which was submitted to the NEA for a management decision. Based on the
documentation provided, the NEA has accepted the questioned costs.

We recommend that APAP develop written policies and implement procedures to ensure
that individual personnel activity reports are maintained, if required, by NEA General
Terms.

NEA GRANT NO. 10-5400-7165
Financial Management System

APAP did not separately identify costs by specific award in its financial management
system. APAP’s financial management system identifies costs by projects. Our review
found that the project supported by this grant covered multiple years and included
multiple NEA awards for different periods of performance. When reviewing the general
ledger detail provided by APAP, we found revenue from another NEA award (Grant No.
10-3200-7286). Therefore, it appears that APAP may have commingled funds from two
NEA awards which could result in questioned costs.

NEA's General Terms incorporates OMB's Circular A-110 (Uniform Administrative
Requirements for Grants and Agreements with Institutions of Higher Education,
Hospitals, and Other Non-Profit Organizations), which addresses the requirement to have
an adequate financial management system. The General Terms states:
       There can be no overlapping project costs between Federal awards. Therefore,
       separate accounting records must be maintained for each award. OMB Circular A-
       110 (2 CFR 215), Section 2, and the "Common Rule," Section 1157.20, as applicable,
       establishes standards for financial management systems of recipients (i.e.,
       accounting systems, internal controls, allowable costs, cash management, etc.). The
       financial management systems of recipient organizations and their subrecipients
       must meet these standards.




                                                 3
APAP did not have policies and procedures in place to ensure that accounting records are
maintained separately for each award. Without policies and procedures in place that
would allow expenditures of grant awards to be segregated, APAP is not able to
adequately identify specific grant award expenditures. The OIG will perform a limited
scope audit on the remaining seven NEA awards in the evaluation scope period to
determine whether there are any other instances of noncompliance with OMB and NEA
guidelines.

We recommend that APAP develop and implement policies and procedures to track each
grant award separately.

Expenses Not Incurred in the Grant Period

Grant No. 10-5400-7165 was awarded in the amount of $75,000 with a one-to-one
matching requirement. APAP claimed a total of $152,574 on its final FFR. However,
during our site visit, we were presented with a listing of expenditures in the amount of
$107,194 incurred during the grant period. To support the remaining expenditures
claimed, APAP provided us with a general ledger detail from a fiscal year outside of the
grant period.

NEA’s Instructions for Completing the Financial Status Report and General Terms,
states:
       All project activities and the commitment of project funds must take place within
       the period of support set out in your award document.

Based on the above, we are questioning costs claimed under the grant in the amount of
$45,380. Without additional documentation, a potential refund may due to the NEA.
However, until the limited scope audit is performed on the remaining seven awards, the
actual refund cannot be determined. Therefore, we are not requesting additional
supporting documentation for this award until a final determination can be made.
Recommendations to address questioned costs for the eight NEA awards will be
addressed in the limited scope audit report, as appropriate.

APAP did not have policies and procedures in place to ensure that only expenditures
incurred within the grant period are included in its reported outlays. We recommend that
APAP develop and implement written policies and procedures to ensure that only
accurate and allowable expenditures incurred during the specific grant period are reported
on its FFRs.

Section 504 Self-Evaluation

APAP did not have the required Section 504 self-evaluation on file. As noted in NEA’s
General Terms, “A Section 504 self-evaluation must be on file at your organization.” A
Section 504 Self-Evaluation Workbook, which can be completed online, is available at
www.arts.gov/about/504Workbook.html.




                                                4
Section 504 of the Rehabilitation Act of 1973, as amended, provides for equal
opportunity to enter facilities and participate in programs and activities. It does not
require that every part of every facility or program be accessible. The important
considerations are that individuals with disabilities have the same opportunities in
employment, the same opportunities to enter and move around in facilities, the same
opportunities to communicate and the same opportunities to participate in programs and
activities as non-disabled people. Further, it is important to offer employment, programs,
and services in settings that are integrated rather than to segregate individuals with
disabilities with special programs.

We recommended that APAP conduct a Section 504 self-evaluation to ensure compliance
with the Rehabilitation Act of 1973, as amended. Subsequent to the evaluation, APAP
completed and provided us with a copy of its Section 504 self-evaluation.

                            EXIT CONFERENCE
A preliminary exit conference was held with APAP officials on April 3, 2012.
Subsequent to our site visit, a telephone exit conference was held with APAP officials on
June 12, 2012. APAP officials concurred with our findings and recommendations.

                           RECOMMENDATIONS
We recommend that APAP:

   1. Develop and implement policies and procedures to track each grant award
      separately.

   2. Develop written policies and implement procedures to ensure that individual
      personnel activity reports are maintained, if required, by NEA General Terms.

   3. Develop and implement written policies and procedures to ensure that only
      accurate and allowable expenditures incurred during the specific grant period are
      reported on its FFRs.




                                            5
